OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/IRAQ’S
AGRICULTURE
RECONSTRUCTION AND
DEVELOPMENT PROGRAM
AUDIT REPORT NO. E-267-07-002-P
JANUARY 22, 2007




BAGHDAD, IRAQ 

Office of Inspector General



      January 22, 2007

      MEMORANDUM

      TO:                      USAID/Iraq Mission Director, Hilda Arellano

      FROM:                    Regional Inspector General/Baghdad, Nancy J. Lawton /s/

      SUBJECT:                 Audit of USAID/Iraq’s Agriculture Reconstruction and Development
                               Program (Report No. E-267-07-002-P)

      This memorandum transmits our final report on the subject audit. In finalizing the report,
      we considered your comments on the draft report and have included them in their entirety
      as Appendix II.

      The report contains one recommendation. In your written comments, you have
      concurred with the recommendation and described actions the Mission plans to take to
      address the auditors’ concerns. Based on your comments, we consider that a
      management decision has been reached on the recommendation. Please coordinate
      final action with USAID’s Audit, Performance and Compliance Division.

      I want to express my sincere appreciation for the cooperation and courtesy extended to
      my staff during the audit.




U.S. Agency for International Development
USAID/IRAQ/RIG
APO, AE 09316
CONTENTS 

Summary of Results ......................................................................................................... 1 


Background ...................................................................................................................... 2 


Audit Objective .................................................................................................................... 3 


Audit Findings ................................................................................................................... 4 


   Contract Oversight Needs Improvement......................................................................... 6 


Evaluation of Management Comments ......................................................................... . 9 


Appendix I – Scope and Methodology .......................................................................... 10 


Appendix II – Management Comments ......................................................................... 12 


Appendix III – Agriculture Program

Activities Selected for Review ...................................................................................... 14 

SUMMARY OF RESULTS 

The Regional Inspector General in Baghdad, Iraq conducted this audit to determine
whether USAID/Iraq’s agriculture reconstruction and development activities are
achieving their intended outputs (page 3).

Of the 29 program activities reviewed, 16 achieved their intended outputs, 12 were on
schedule of doing so, and one will likely not achieve its intended outputs. Significant
activities which reached intended outputs included seed cleaning equipment
procurement and demonstrations, and date palm infrastructure support (page 4).

USAID/Iraq did not properly administer its contract with Development Alternatives, Inc.
with regards to proper review of payment vouchers, documentation of key events, and
annual evaluations of contractor performance reporting. Operational requirements were
given priority, and administrative requirements were not always accomplished.
Weaknesses in USAID/Iraq’s contract administration could have resulted in inefficient
use of U.S. government resources (page 6).

The report includes one recommendation addressing the documentation of key events
weakness. Mission management agreed with the recommendation, and a management
decision was reached. Other weaknesses pertaining to proper review of payment
vouchers and annual evaluations of contractor performance reporting were addressed in
earlier audit reports.

Management comments are included in their entirety (without attachments) in Appendix
II.




                                                                                     1
BACKGROUND 

The Iraqi agricultural sector is marked by low productivity and a lack of employment and
income opportunities for the rural population. While many of the problems in the sector
can be directly attributed to recent wars and sanctions, the root cause dates back to the
late 1960s, when Iraqi government policies regarding the agricultural sector were first
formulated. These policies suffered from two basic shortcomings: (1) general neglect of
agriculture relative to other sectors of the economy and (2) a centrally planned approach
that determined the major crops to be grown, subsidized the inputs, set prices, and
established government-owned or controlled industries for processing.

The impact of the agricultural sector on the economy is significant. In 2004, it was
estimated that this sector accounted for $1.5 billion (or approximately 19 percent) of
Iraq’s $8 billion non-oil Gross Domestic Product. It is estimated that agriculture could
provide full or partial employment of 30 to 50 percent of the employable population.

In October 2003, USAID initiated a comprehensive national plan to revitalize the
agricultural sector, and the program was scheduled to run through December 2006. The
program sought to significantly increase production levels and incomes and to
strengthen the private sector by focusing on six areas: (1) crop production, (2) livestock
improvement, (3) high-value agriculture, (4) soil and water resources management, (5)
government-to-market transition, and (6) marshlands rehabilitation. By the time the
program is completed, it is expected to have expanded the Gross Domestic Product of
the agricultural sector by 15 percent.

USAID awarded a contract to Development Alternatives, Inc. (DAI) to implement
USAID/Iraq’s agriculture program. As of June 30, 2006, the contract with DAI had total
obligations and disbursements of approximately $101 million and $80 million,
respectively. Of the amount disbursed, approximately $52 million was spent for goods
and services related to program activities. Disbursements also included $15 million in
grants and $13 million for contractual obligations such as overhead, general and
administrative costs, and profit. The program began in October 2003, but the amount
obligated was only approximately $11 million until November 2004 when the obligated
amount was increased to approximately $72 million.




                                                                                        2
AUDIT OBJECTIVE
As part of the fiscal year 2006 annual audit plan and because of the importance of the
agriculture reconstruction and development program, the Regional Inspector General in
Baghdad, Iraq conducted this audit to answer the following question:

   •   Are USAID/Iraq’s agriculture activities achieving their intended outputs?

Appendix I contains a discussion of the audit scope and methodology.




                                                                                    3
AUDIT FINDINGS 

Of the 29 agriculture activities selected for review, 16 achieved their intended outputs,
12 were on schedule of doing so and one (the tractor repair program) will likely not
achieve its intended outputs, due to events subsequent to the audit field work. The 29
program activities reviewed included at least one activity from each of the six program
areas and covered 92 percent of the program activities in terms of dollar magnitude,
$47,987,951 as of April 29, 2006. The table below summarizes Development
Alternatives, Inc.’s (DAI) progress in achieving the intended outputs for major program
activities.

                                               Intended        Output as of  Activity Value
            Program Activities
                                                Output        August 2, 2006 (In Millions) 1
    Tractors Repaired (units) 2                   5,670 3            3,609       $25.0
       Mechanization Program I (units)           [2,789]           [2,244]        [15.2]
       Mechanization Program II (units)          [1,896]           [1,298]          [8.0]
       Mechanization Program III (units)           [257]               [67]         [1.3]
       Mechanization Monitoring                       na                na         [0.5]
    Develop Strategy for Water and
                                                       1                   0            4.5
    Land Resources
    Establishment of Date Palm
    - Nurseries (offshoots)                    170,000             170,000              2.3
    - Mother Orchards (offshoots)               40,000              40,000
    Date Palm Infrastructure Support
                                                     33                   33            2.2
    (expansions)
    Wheat Seed Procurement (2004)
                                                  4,000               4,000             2.1
    (tons)
    Seed Cleaning Demonstration and
                                                    169                 169             2.0
    Equipment (units) 4
    Total                                                                             $38.1

A complete list of activities selected for review is included as Appendix III.

The major program activities listed in the above table are discussed below.

      •	 The most significant activity of the program with respect to dollar magnitude and
         impact is the tractor repair activity. Under this activity DAI planned to repair
         5,670 tractors using three partners in various repair facilities located throughout
         Iraq. In an attempt to optimize the number of repairs, DAI limited the repairs to
         certain models that were most abundant and considered the interchangeability of
         parts among various models of tractors. As of August 2, 2006, DAI reported that

1
    Budgeted amounts for “on schedule” activities and incurred costs for completed activities.
2
    Full name of Mechanization Programs was not disclosed for security reasons.
3
    An estimated $4 million contract option for an additional 728 repairs had not been exercised as
    of the end of the audit field work (August 10, 2006). Subsequently, DAI determined that it did
    not have sufficient funds in the program to exercise this option.
4
    DAI procured 173 seed cleaners but distributed 169 for use. The remaining four cleaners were
    used for spare parts and training.

                                                                                                 4
       3,609 tractors had been repaired, and it was on schedule to reach the intended
       output of 5,670 repairs by the end of the contract (December 31, 2006). During
       our visit to a tractor repair facility, we noted that the repairs were taking place as
       reported, and we conducted limited tests of management controls. Meeting the
       planned results required DAI to exercise an option with a subcontractor for 728
       tractor repairs at an estimated cost of $4 million. DAI had planned to exercise
       this option, but in August 2006, DAI determined that there were no funds
       available to do so. Therefore, the tractor repair program would not be able to
       meet its intended outputs. Nevertheless, DAI was on schedule to repair 4,942
       tractors as contracted with its subcontractors.




Photographs of technicians preparing parts and inspecting repaired tractors at a tractor repair
facility (Regional Inspector General/Baghdad auditor took the photographs in June 2006).

   •	 The objective of the strategy for water and land resources activity was to work
      with different Iraqi ministries to create a comprehensive plan to guide water
      resources development in Iraq over the next two decades. The activities
      included providing training to officials at the Ministry of Water Resources. This
      activity was on schedule.

   •	 The date palm activity supported the Iraqi Ministry of Agriculture national
      program aiming to propagate and improve the date palms in Iraq. With the
      program’s support, the Ministry of Agriculture purchased 170,000 and 40,000
      offshoots for date palm nurseries and mother orchards, respectively.

   •	 Date palm infrastructure support activities were designed to increase the
      availability of date palm offshoots to Iraqi farmers through the establishment of
      date palm mother orchards and new date palm nurseries. Working in 13
      governorates, DAI targeted and established infrastructure for 17 mother orchards
      and 16 nurseries. Infrastructure support included construction of water reservoir
      basins, pump houses, and associated irrigation equipment.

   •	 DAI procured and delivered 4,000 tons of wheat seeds to the Ministry of
      Agriculture seed storage facility in Ninewa (Mosul), the most important wheat
      growing governorate in Iraq.




                                                                                             5
      •	 Under seed cleaning activities, DAI distributed 169 seed cleaning machines to
         organizations throughout the country. Seeds that are cleaned and treated are
         estimated to be 25 percent more valuable in monetary terms than uncleaned
         seeds.

Despite the accomplishments and progress achieved in the planned activities, we
observed weaknesses in USAID/Iraq’s management of the contract. These weaknesses
should be addressed to facilitate the accomplishment of the remaining outputs, and
improvements could contribute to more effective management of planned follow-on
agriculture activities. These observations are discussed in more detail below.

Contract Oversight Needs Improvement

    Summary: USAID/Iraq did not properly administer its contract with DAI with regards
    to review of payment vouchers, documentation of key events, and annual evaluations
    of contractor performance. USAID/Iraq was required to follow the applicable Federal
    Acquisition Regulation and USAID’s Automated Directives System in administering
    the contract. However, these administrative requirements were not always met
    because operational requirements were given priority. Weaknesses in USAID/Iraq’s
    contract administration could have resulted in inefficient use of U.S. government
    resources.

Review of Payment Vouchers – ADS 630.3.2.1 provides administrative approval
guidance and USAID’s Guide for Managers and Cognizant Technical Officers
emphasizes that the cognizant technical officer (CTO) should review, analyze, and
evaluate the contractor’s progress, performance, and compliance with the technical,
price, and schedule provisions of the contract. The various CTOs assigned to the DAI
contract properly signed and completed the payment vouchers’ administrative approval
forms and checklists. However, of the 32 payment vouchers examined during the audit,
totaling approximately $64 million, very little evidence was found that documented CTO
reviews, including review of vouchers to ensure that the included charges accurately
reflected the work accomplished during the period.

Due to staffing challenges during the contract implementation period and the workload at
USAID/Iraq, daily operational requirements took precedence, and payment vouchers
were not adequately reviewed by CTOs. Proper review and administrative approval for
payment and monitoring of programmatic and financial aspects of the contract are
essential for program success. Specifically, all payment vouchers should be reviewed to
ensure that they accurately reflect the work completed during the period in accordance
with the requirements of the contract. Without such reviews, there was no assurance as
to the reasonableness of the approximately $80 million in disbursements made to DAI.

Review of payment vouchers is a significant event that can impact overall contract
performance. We found the same weakness during a recent audit and made a
recommendation in that audit to address the issue. 5 As the recommendation was
addressed to USAID/Iraq without specifying a program, RIG/Baghdad expects that the


5
    Audit of USAID/Iraq’s Local Governance Activities, Report No. E-267-06-003-P dated July 10,
    2006.

                                                                                                  6
corrective action will be applied to all USAID/Iraq’s programs, including the agriculture
program. Therefore, we are not making a recommendation at this time.

Documentation of Key Events – Effective documentation and recordkeeping is
emphasized in the Government Accountability Office’s Standards for Internal Control in
the Federal Government. All transactions and significant events need to be clearly
documented, and the documentation should be readily available for examination. In
addition, pursuant to Automated Directives System (ADS) 502.5 1b, official records must
be preserved because of the information value of the data they contain or as evidence of
the organization, functions, policies, decisions, procedures, operations, or other activities
of the Agency. Further, USAID’s Guide for Managers and Cognizant Technical Officers
states that one of the CTO’s administrative responsibilities is the establishment and
maintenance of adequate files to document all significant actions.

We found little documentation demonstrating CTO involvement in the approval of
quarterly work plans and review of monthly progress reports. Further, we found little
documentation evidencing monitoring site visits. CTOs appeared to be relying on an
informal recordkeeping system consisting mostly of electronic copies of e-mail
correspondence and attachments to document significant events.

While we recognize that the Mission has been operating in a difficult working
environment, the nature of this environment underscores the need to maintain a formal
work file to document, at a minimum, the significant decisions affecting the status of
activities. Such a file would not only help ensure that pertinent management information
is readily available, but it would also facilitate the continuity of activities when there are
staff changes. Formal documentation is needed, not only for recordkeeping purposes,
but also for future reference in the event of a dispute or a turnover of staff. The absence
of such documentation could result in a misunderstanding of direction and negatively
impact the Mission’s ability to effectively monitor the contract and reported results.

We found the same weakness during a 2004 audit of USAID/Iraq’s Economic Reform
Program and made a recommendation to address the issue. 6 The recommendation was
addressed and final action was taken. However, the weakness still exists, because of
the high turnover of the CTOs and priority given to operational requirements. Therefore,
we are making the following recommendation:

     Recommendation No. 1: We recommend that the USAID/Iraq Office of
     Acquisition and Assistance verify that Cognizant Technical Officers are
     documenting significant events and key decisions impacting on the design and
     monitoring of activities.

Contractor’s Performance Reporting – Pursuant to ADS 302.5.9, it is USAID’s policy
that contracts in excess of $100,000 be evaluated at least annually for contracts
exceeding one year in duration and upon completion of activities, as required by section
42.1502 of the Federal Acquisition Regulation. USAID/Iraq did not evaluate DAI’s
performance because the contracting office had not developed specific procedures to
ensure that evaluations were completed. The contracting officer who arrived in June
2005 stated that she found that the evaluation for year one was not completed and that

6
    Audit of USAID/Iraq’s Economic Reform Program, Report No. E-266-04-004-P dated 

    September 20, 2004. 


                                                                                            7
she was in the process of completing the evaluation for year two. She added that it had
been difficult to get input from the various CTOs who were assigned to the contract
during the evaluation period. To date, five different CTOs have been assigned to
manage the contract.

Because past performance evaluations may be used to support future contract award
decisions, not completing the evaluations could potentially result in awarding future
contracts to poor performers. We found the same weakness during a recent audit and
made a recommendation to address the issue. 7 As the recommendation was addressed
to USAID/Iraq’s Office of Acquisition and Assistance without specifying a certain
program, RIG/Baghdad expects a corrective action that is applicable to all USAID/Iraq’s
programs, including the agriculture program.     Therefore, we are not making a
recommendation at this time.

Other Matters of Note – The contract with DAI requires that initial salaries of
professional employees be approved in advance by the contracting officer, but we noted
during the audit that a professional employee had been hired without notification to the
contracting officer, although the CTO had approved the qualifications of the employee.
USAID/Iraq’s Office of Acquisition and Assistance took action to address this issue;
therefore, we are not making a recommendation.

We also noted that prior to May 2005, 11 of 63 grants tested had been approved by
Mission employees who did not have formal delegated approval authority. We are not
making a recommendation regarding this because no occurrences were noted after April
2005. We further noted that 39 of the 63 grants tested were awarded to governmental
entities, mainly the Ministry of Agriculture, despite the contract’s requirement to award
grants to non-U.S. and non-governmental entities.              We are not making a
recommendation regarding this matter because the USAID/Iraq Office of Acquisition and
Assistance addressed this issue in August 2005.




7
    Audit of USAID/Iraq’s Local Governance Activities, Report No. E-267-06-003-P dated July 10,
    2006.

                                                                                             8
EVALUATION OF
MANAGEMENT COMMENTS
In commenting on our draft report, USAID/Iraq agreed with the recommendation.

In its response to the recommendation, Mission management stated that the USAID/Iraq
Office of Acquisition and Assistance will prepare a management plan to systemize and
record its periodic verification of Cognizant Technical Officers’ files; implementation of
the plan is anticipated by the end of February 2007. Mission management stated that
the goal of the plan is to help sustain lessons learned and best practices, over time and
despite the high turnover rates of Mission personnel, due to the short (one year)
Baghdad assignments. Based on the response, we consider the recommendation to
have received a management decision.

The determination of final action for the recommendation will be made by the Audit,
Performance and Compliance Division (M/CFO/APC).




                                                                                        9
                                                                           APPENDIX I 




SCOPE AND METHODOLOGY 

Scope
The Regional Inspector General in Baghdad conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine if USAID/Iraq’s agriculture reconstruction and development program under the
Development Alternatives, Inc. (DAI) contract RAN-C-00-04-00002-00 is achieving its
intended outputs.

Overall, the audit evaluated the Mission’s management controls to ensure that all
aspects of monitoring were aligned toward making certain that the intended outputs were
achieved. In assessing controls, we emphasized financial controls as well as controls
over the monitoring and reporting of program results. In planning and performing the
audit, we assessed management controls pertaining to the review and approval of key
programmatic and financial documents and adequacy of oversight of DAI activities as
evidenced by correspondence and documentation of site visits and key meetings.
Specifically, we reviewed and evaluated (1) quarterly work plans, (2) contractor-
submitted vouchers, (3) monthly progress reports, and (4) incurred cost audits of the
contract by the Defense Contract Audit Agency.

As of June 30, 2006, the agriculture reconstruction and development program had total
obligations of $101 million and total disbursements of $80 million.

To assess controls associated with results reporting, we judgmentally selected 45
reported activities from three monthly progress reports for substantive testing. In
addition, to assess whether intended outputs of the activities have been achieved or
were on schedule of doing so, we judgmentally selected approximately 92 percent of the
activities based on dollar magnitude of expenditures within the six program areas.

During the audit field work, tractor repair activities were on schedule of reaching
intended outputs, with 3,609 repairs as of August 2, 2006 (page 4). Reaching the
intended output level, however, depended upon the implementing partner exercising an
option with a subcontractor for the repair of 728 tractors. As a result of events
subsequent to the audit field work, the implementing partner was not able to exercise
this option. The tractor repair program therefore would not be able to meet its intended
outputs.

Under this contract, funds were also available for the award of grants. As of April 30,
2006, DAI awarded 241 grants with a total value of approximately $14 million. To
determine whether the cognizant technical officers were managing grant activities in
accordance with the requirements of the Automated Directives System (ADS) Chapter
303, “Grants and Cooperative Agreements to Non-Governmental Organizations,” the
grant manual, and the contract, we statistically selected 63 grants for review. We were
only able to visit four grantees due to security concerns. Grants, awarded separately
from the program activities, were used to supplement those activities, renovate
veterinary clinics, renovate and clean irrigation canals, procure seed, and accomplish
other related activities.



                                                                                     10
                                                                             APPENDIX I



RIG/Baghdad performed the audit with fieldwork mainly taking place at USAID/Iraq. In
addition, we conducted fieldwork at DAI Headquarters in Erbil and at various project
sites in Erbil province. The audit fieldwork was conducted from April 13, 2006, through
August 10, 2006.

Methodology
To answer the audit objective, we reviewed pertinent USAID directives and regulations
such as the ADS, the program requirements as defined by DAI contract RAN-C-00-04
00002-00 and its amendments, and work plans. We interviewed present and past
cognizant technical officers and other key Mission staff in financial, acquisition, and
program domains.      In addition, we interviewed key programmatic staff of the
implementing partner to gain perspective on the activities they implemented.

Based on our assessment of the Mission’s management controls with respect to
monitoring, we judgmentally selected 45 program activities from three monthly progress
reports to determine accuracy and consistency in reporting to gain assurance that the
reported activities and projects were reported in a factual and realistic manner. Our
review compared reported information in the monthly reports and ultimately compared
these reported results to source documentation, which included training documentation,
attendance records, consultant reports, photographs, and final assessment reports. To
determine if activities were achieving intended outputs, we held discussions with
component managers and reviewed relevant documentation such as sub-contracts,
payment vouchers, assessment reports, and photographs.

To assess overall controls over the grants program, we reviewed applicable criteria and
developed a checklist which we then compared against grant approval documentation
and source documentation—such as vouchers, independent assessments, and
photographs—to determine if DAI was in compliance with contract requirements and if
the intended grant outputs were achieved.

In addition, as permitted by the security situation, we conducted site visits to four grant
locations and visited two key activities in Erbil. Our review and observations did not
reveal significant discrepancies between the reported results and the evidence produced
by source documentation.

In assessing data quality and verifying and validating the performance data to source
documentation, we used a materiality threshold of 1 percent for transcription accuracy
and 5 percent for computation accuracy.




                                                                                        11
                                                                              APPENDIX II 




MANAGEMENT COMMENTS 



7 January 2007

MEMORANDUM

TO: 	          Regional Inspector General/Baghdad, Nancy J. Lawton

FROM: 	        USAID/Iraq Mission Director, Hilda Arellano/s/

SUBJECT: 	     Draft Audit Report No. E-267-07-00X-P
               USAID/Iraq’s Agriculture Reconstruction and Development Program

This memorandum provides USAID/Iraq comments on the subject draft audit report.

The report contains one recommendation:

   Recommendation No. 1: We recommend that the USAID/Iraq Office of Acquisition
   and Assistance verify that Cognizant Technical Officers are documenting significant
   events and key decisions impacting the design and monitoring or key activities.

USAID/Iraq agrees with the recommendation, with the understanding that the
recommendation refers to technical direction and monitoring of key activities in the
context of post-award administration of the contract and not to the pre-award activity
design. The Office of Acquisition and Assistance (OAA) Baghdad meets regularly with
CTOs and will utilize the opportunity to review and discuss with individual CTOs his/her
records including, for instance, technical direction, monitoring, approvals, and other
responsibilities included in the CTO designation memorandum. In addition,
OAA/Baghdad has been asked to prepare a management plan to systemize and record its
periodic verification of CTO files; implementation of the plan is anticipated by the end of
February 2007. The goal of the plan is to help sustain lessons learned and best practices
in this area, over time and despite the high turnover rates of mission personnel, due to the
short (1-year) Baghdad assignments.



                               U.S. Agency for International Development
                            Office of ِAcquisition and Assistance - Baghdad
                                       Iraq Mission, APO AE 09316 

                                          Phone +1(202)216-6276 

                                           Fax +1(202)216-6196



                                                                                         12
                                                                           APPENDIX II 



With respect to audit findings, the following comment is offered.

On page 6, under Review of Payment Vouchers, the first paragraph refers to “very little
evidence” found to document CTO review of payment vouchers. We understand from
the preliminary brief that the auditors did find that the CTOs do follow USAID policy
and procedure in documenting administrative voucher approvals, including signature of
the SF1034 and completion of “Administrative Approval Form and Checklist.”
Accordingly, we request that this be noted in the report.

Thank you for the opportunity to comment on the draft audit report.




                                                                                      13
                                                                                      APPENDIX III 



                   Agriculture Program Activities Selected For Review

                                                                                          Status as of
          Activity Title 8                                            Amount 9            July 30, 2006
      1   Develop Strategy for Water and Land Resources in Iraq        $ 4,500,000        On schedule
      2   Irrigation Efficiencies                                          500,000        On schedule
      3   Agro-Meteorological Stations                                     325,200        On schedule
      4   Drainage & Salinity Pilot Areas                                  277,830        On schedule
      5   Raising Canal Banks                                              250,000        Complete
      6   Wheat Seed Procurement (2004)                                  2,128,000        Complete
      7   2004 - 2005 Winter Crop Technology Demonstrations                498,900        Complete
      8   On-Farm Hybrid Maize Trials                                      278,850        Complete
      9   Wheat Seed Procurement (2005)                                    209,300        Complete
     10   Summer Crop Technology Demonstrations – Rice                     158,687        Complete
     11   2003-2004 MOA Winter Crop Demonstrations                         151,934        Complete
     12   Seed Cleaning Demonstration (Including equipment
                                                                          2,000,000       Complete
          procurement)
     13   National Cadastral Mapping and Land Administration
                                                                           272,000        On Schedule
          Project
     14   National Program for the Preparation of Agro-ecological
                                                                           264,000        On Schedule
          Zones (AEZ) Maps
     15   Wholesale Prices Monitoring                                      170,000        On Schedule
     16   Mechanization Program I                                       15,187,923        On Schedule
     17   Mechanization Program II                                       8,000,000        On Schedule
                                                                                                      10
     18   Mechanization Program III                                      1,300,000        On Schedule
     19   Mechanization Monitoring                                         450,000        On Schedule
     20   Establishment of date palm nurseries Phase I                   1,861,500        Complete
     21   Establishment of High-Oil Olive Orchards                       1,677,578        Complete
     22   National Program for the Improvement and Propagation
          of Date Palms - Mother Orchard Infrastructure Support           1,250,000       Complete
     23   National Program for the Improvement and Propagation
                                                                           975,000        Complete
          of Date Palms - Nursery Infrastructure Support
     24   Establishment of date palms mother orchards Phase II             438,000        Complete
     25   Brucellosis Vaccination Campaign in southern Iraq                700,000        Complete
     26   Improving Buffalo Calving Rate through Improved
                                                                             75,000       Complete
          Nutritional Regime Demonstration
     27   Improving Buffalo Calving Rate through Hormone
                                                                             45,000       Complete
          Treatment Demonstration
     28   M&E Surveys                                                      100,000        On Schedule
     29   Marshes Monitoring                                               127,000        On Schedule




8
     Full name of Mechanization Programs was not disclosed for security reasons.
9
     Budgeted amounts for “on schedule” activities and actual costs for completed activities.
10
     An estimated $4 million contract option for an additional 728 repairs had not been exercised by
     DAI as of the end of the audit field work (August 10, 2006). Subsequently, DAI determined that
     it did not have sufficient funds in the program to exercise this option.



                                                                                                 14 

U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
